1
n
ilfillllli

No.

a i.

In The

Supreme Court, U.S.
FILED

Supreme Court of The United States

JUN 2 4 2021
OFFICE OF THE CLERK

Glen Plourde,
Petitioner
v.

STATE OF MAINE; WILLIAM ANDERSON, Penobscot County Superior Court
Justice; CHARLES F. BUDD JR., Newport District Court Judge; PENOBSCOT
COUNTY DISTRICT ATTORNEYS OFFICE, MARIANNE LYNCH, Penobscot
County District Attorney; STEPHEN BURLOCK, Penobscot County Assistant
District Attorney; PHILIP MOHLAR, Attorney at Law; DICK HARTLEY, Attorney
at Law
Respondents

On Petition For Writ Of Certiorari To
The First Circuit Court of Appeals

PETITION FOR A WRIT OF CERTIORARI

Glen Plourde
455 Chapman Road
Newburgh, Maine 04444
207-659-2595

QUESTIONS PRESENTED
1. Does the continual refusal of the Federal Court System (District and Circuit
Court of Appeals) to address the judicially noticeable fact that the Petitioner
has been Tortured and has suffered lasting injury as a result, as pled in his
complaint(s) and associated pleadings, violate the Plaintiffs United States
Constitutional Rights and/or his International Rights under The Geneva
Conventions against Torture and Other Cruel, Inhuman or Degrading
Treatment or Punishment?
The Petitioner notes that the Federal Courts are charged with the issue of
Torture as it is a Federal Crime as well as an International Crime.
2. Does the continual and continued disenfranchisement of the Petitioner by the

Federal Court System (District and Circuit Court of Appeals), as irrefutably
evidenced in the Petitioner’s Federal Court Cases, violate the Petitioner’s
Constitutional Rights or other Rights conferred upon the Petitioner?
3. Does the well-evidenced fact that the Federal District Court of Maine’s

decision in this case, and the First Circuit’s subsequent upholding of that
decision, is in conflict with multiple instances of United States Supreme
Court case law designed to protect Pro Se litigants from abuse by The Courts
mean that the Federal Courts have abused their discretion?

LIST OF PARTIES

[X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
Plourde u. State of Maine, et al, No. 20-CV-00149, U.S. District Court for the
District of Maine. Judgement entered 05/22/20.
Plourde u. State of Maine, et al, No. 20-1611, U.S. Court of Appeals for the First
Circuit. Judgement entered 11/12/20. Judgement on Petition for Rehearing entered
01/25/21.

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE PETITION

14

CONCLUSION.

40

INDEX TO APPENDICIES

APPENDIX A

Decision, U.S. First Circuit Court of Appeals, 20-1611

APPENDIX B

Decision, U.S. District Court of Maine, 1:20-CV-00149-LEW

APPENDIX C

Decision RE: Petition for Rehearing, U.S. First Circuit, 20—1611

APPENDIX D

18 U.S.C. Chapter 113C — Torture

APPENDIX E

Geneva Conventions against Torture and Other Cruel, Inhuman
or Degrading Treatment or Punishment, Part 1

TABLE OF AUTHORITIES

Cases
1:20-CV-00149-LEW (US District of Maine)...........................

..26-34, 34-39

20 - 1610 (US First Circuit)......................................................

...14-25,26-34

20-1611 (US First Circuit)..... .......... .....................................

...14-25,26-34

20 - 1777 (US First Circuit)......................................................

...14-25, 26-34

20 - 2166 (US First Circuit)........................ ............................

...14-25,26-34

Artuso v. Vertex Pharm Inc., 637 F.3d 1, 5 (1st Cir. 2011).......

..14-25, 34-39

Denton v. Hernandez, 504 U.S. 25, 33 (1992)..........................

..............34-39

DesRosiers v. Moran, 949 F.2d 15, 23 (1st Cir. 1991).............

26-34,34-39

Flores v. U.S. Atty. Gen., 2013 WL 1122719, at *2 (ME 2013)

,26-34

Golden v. Coleman, 429 Fed. App’x 73, 74 (3rd Cir. 2011).....

26 - 34

Haines v. Kerner, 404 U.S. 519,520.........................................

14-25

Neitzke v. Williams, 490 U.S. 319, 324 (1989).........................

34-39

Statutes and Rules
Fed. R. Civ. P. 72......................................................................

26 - 34

18U.S.C. 113C..........................................................................

14-25

Other
Fourth Amendment to the Constitution

............. 26-34,34-39

Fifth Amendment to the Constitution..,

14-25,26-34, 34-39

Eighth Amendment to the Constitution

............. ............. 14-25

Ninth Amendment to the Constitution..

14-25

Fourteenth Amendment to the Constitution

14-25

The Geneva Conventions Against Torture and Other Cruel, Inhuman or Degrading
Treatment or Punishment
14-25

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[X] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

f
[)Q reported at_'Zo-Xbn
- J or,
[ j has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United State district court appears at Appendix
the petition and is
bt] reported at /'

1?_..to

~

; or,
[ } has been designated for publication but is not yet reported; or,
[ ] is unpublished.

[ 3 For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix -_____ to the petition and is
[ ] reported at
; or,
[ 3 has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

001

to

JURISDICTION
[x] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was___ (_!----------- [ ] No petition for rehearing was timely filed in my case.
iy] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:-----£>/ /'z-^/ g- f_______ , and a copy of the
order denying rehearing appears at Appendix__Q.
[)Q An extension of time to file the petition for a writ of certiorari was granted
to and including__ ---------------------- (date) on-------------------------- (date)
-in Application No. ...A:_.... r *Or*t^rm (0*-**,^ L>sb S89 W.r,-)
Cc-k- e*t*~A*A +%> t s~0 ela.yS.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my ease was
A copy of that decision appears at Appendix---------[ ] A timely petition for rehearing was thereafter denied on the following date:
___________ .
______, and a copy of the older denying rehearing
appears at Appendix
£ ] An extension of time to file the petition for a writ of certiorari was granted
(date) on
(date)in
to and including____
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

002

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
1. The Fourth Amendment to the United States Constitution - The right
of the people to be secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not be violated, and no
Warrants shall issue, but upon probable cause, supported by Oath or
affirmation, and particularly describing the place to be searched, and the
persons or things to be seized.
2. The Fifth Amendment to the United States Constitution - No person
shall be held to answer for a capital, or otherwise infamous crime, unless on a
presentment or indictment of a Grand Jury, except in cases arising in the
land or naval forces, or in the Militia, when in actual service in time of War
or public danger; nor shall any person be subject for the same offence to be
twice put in jeopardy of life or limb; nor shall be compelled in any criminal
case to be a witness against himself, nor be deprived of life, liberty, or
property, without due process of law; nor shall private property be taken for
public use, without just compensation.
3. The Eighth Amendment to the United States Constitution - Excessive
bail shall not be required, nor excessive fines imposed, nor cruel and unusual
punishments inflicted.
4. The Ninth Amendment to the United States Constitution - The
enumeration in the Constitution, of certain rights, shall not be construed to
deny or disparage others retained by the people.
5. 18 USC Chapter 113C - Federal Torture Statutes. Included as Appendix
D due to length.
6. The Geneva Conventions against Torture and other Cruel, Inhuman,
or Degrading Treatment or Punishment, Part 1 - Adopted and opened
for signature, ratification and accession by General Assembly resolution
39/46 of 10 December 1984; entry into force 26 June 1987, in accordance with
article 27(1). Included as Appendix E due to length.

003

STATEMENT OF THE CASE
Petitioner was prosecuted in case PENDC-CR-16-20309 by respondents
Penobscot County District Attorney Marianne Lynch (“DA Lynch”) and Penobscot
County Assistant District Attorney Stephen Burlock (“ADA Burlock”) on behalf of
The State of Maine over the period of time spanning 06/10/16 - 04/26/17.
Petitioner retained the services of respondent Philip Mohlar Esq. (“Mohlar”)
on or about 07/01/16 as his defense counsel after contacting numerous (if not all)
defense attorneys in the Farmington/Skowhegan area (his local area at that time)
and finding that all of those attorneys would not accept his case (““Complaint”,”,
f22 - 24).

Contemporaneously, the alleged victim in this case, the Petitioner’s father,
who had told the arresting officer he did not want the Petitioner arrested in the first
place (“Complaint”, f 16), retained the services of Attorney Dick Hartley Esq.
(“Hartley”) of Bangor, Maine in an effort to try to convince the State of Maine to
drop the criminal charge against the Petitioner (“Complaint”, ^|25, exhibit B).
On or about 07/27/16, the Petitioner was told by Mohlar that he had spoken
to both Hartley and DA Lynch and was made aware of the fact that the alleged
victim in this case retained by Hartley did not want his son prosecuted by The State
of Maine. Furthermore, the Petitioner was told that the alleged victim and his
brother (a witness) had both stated their refusal to testify against the Petitioner to
Hartley, who had communicated all of this information to both Mohlar and DA

004

Lynch. Mohlar told the Petitioner that the case should therefore be easily disposed
of in the Petitioner’s favor (“Complaint”, f 25, exhibit B).
However, instead of dropping the charge against the Petitioner at that time
due to the lack of a witness and the fact that the alleged victim would refuse to
testify as he did not even want the Petitioner prosecuted, as the Petitioner assets
that any reasonable District Attorney would do, DA Lynch and the Penobscot
County District Attorney’s Office, including ADA Burlock, continued to prosecute
the Petitioner on behalf of The State of Maine for an additional 9 months until
04/26/17, when the case was dismissed for “Lack of Witness” (“Complaint”, ^[25,
exhibit B).
Both Mohlar, who had been retained by the Petitioner to represent him as his
defense counsel, and Hartley, who had been retained by the alleged victim to convey
the fact, to DA Lynch and ADA Burlock, that he did not want the Petitioner
prosecuted nor would he or his brother testify against the Petitioner, were
completely ineffectual at having this case dismissed for “Lack of Witness” as it
clearly should have been when this information was conveyed to the Penobscot
County DA’s Office on or about 07/27/16 (“Complaint”, f1f25 - 32, exhibit B).
In fact, Mohlar seemed to be enabling the prosecution of the Petitioner as he
continually kept moving for continuation of the Petitioner’s court dates without the
Petitioner’s knowledge or permission and thus dragging out PENDC-CR-16-20309
for his own personal reasons, citing things such as “he had to attend his son’s little

005

league game” , “he was taking his son to college”, or that he “had a previous
vacation scheduled for the hearing date (“Complaint”, ^39 — 41, exhibits C, D, E).
The Petitioner became extremely frustrated with the situation and demanded
to attend his next hearing date, scheduled for 09/28/16. Mohlar strongly cautioned
the Petitioner not to do this and told him to stay away from the courthouse. When
the Petitioner asked if there was any reason he could not attend the 09/28/16 court
hearing, Mohlar reluctantly said “no” and allowed him to attend the 09/28/16 court
hearing (“Complaint”, ff42 — 43, exhibit F).
Before the 09/28/16 court hearing began, the Petitioner was instructed and
strongly cautioned by Mohlar not to enter the courtroom at any time or under any
circumstances and just sit, alone and by himself, in the lobby. Petitioner asked if he
could speak with DA Lynch himself regarding his situation as he was frustrated
with Mohlar’s lack of performance. Mohlar looked extremely uncomfortable and
asked the Petitioner what he was planning on saying to her, and the Petitioner
stated to Mohlar that he wished to state his case to DA Lynch. Mohlar said he
would see if such a talk could be facilitated and returned shortly thereafter and said
that DA Lynch was unable to speak with the Petitioner (“Complaint”, ^[42 — 44,
exhibit F).
After the 09/28/16 court hearing, Petitioner was told by Mohlar that a plea
agreement had been reached with DA Lynch that would involve the Petitioner
agreeing to a PFA order with the alleged victim and involve some counseling
sessions. The details regarding the counseling sessions were unspecified and thus

006

the Petitioner could take no proactive measures towards fulfilling the “counseling
requirement” of the Plea Agreement until further details were received by DA
Lynch two months later on 11/30/16 (“Complaint”, ^[45, exhibit F).
On or about 11/02/16 the Petitioner agreed to a 2-year PFA order with the
alleged victim in order to fulfill the only part of the plea agreement he was able to
at that time (“Complaint”, 1f50).
Between the time spanning approximately 07/01/16 - 10/30/16 the Petitioner
grew increasingly frustrated with Mohlar’s lack of progress, continued
continuations of the Petitioner’s court hearings without the Petitioner’s knowledge
or consent, and refusals to allow the Petitioner to attend his court hearings.
Petitioner made numerous calls to Mohlar over that time. Mohlar almost never
took his calls and almost never called him back. Petitioner furthermore visited
Mohlar’s office without a scheduled appointment at least three times in that
timeframe and Mohlar never was available to speak with the Petitioner
(“Complaint”, ^^[46 — 49, exhibit C).
On or about 10/30/16 the Petitioner was contacted by Mohlar who stated to
the Petitioner that he had exhausted his retainer and no longer wished to represent
him. The Petitioner had no objection due to Mohlar’s performance as described
above (“Complaint”, f 52, exhibit C). Mohlar therefore submitted a withdrawal of
counsel form the following day, 10/31/16 (“Complaint”, 53, exhibit G).
Approximately three years later, on 05/06/19, Mohlar was appointed by The
Capital Judicial Center to be his Court-Appointed Attorney in criminal matters

007

KENDC-CR-18-20983 and KENDC-CR-18-21183, both of which were eventually
dismissed. Mohlar has stated to That Court that he was “not comfortable accepting
an appointment for these cases” and specifically that “Mr. Plourde... ultimately
fired me” (“Complaint”, f 54 and exhibit H).
This statement to That Court is in direct contradiction to the facts of what
verifiably happened as is clear from a comparison of both exhibits G and exhibits H
(“Complaint”, THf55 - 56 and exhibits G, H).
On or about 11/02/16 the Petitioner filed a 6-page paper with Maine State
Senator Susan Collins, Maine State Senator Angus King, The Maine Human Rights
Commission, and The Maine State District Attorney’s Office describing the fact that
he had been Tortured during his 2012 - 2013 Employment at United Technologies
Hamilton Sundstrand and asking for their assistance with this matter
(“Complaint”, exhibit AA).
On the morning of the 11/30/16 hearing, the Petitioner met with DA Lynch
“off the record” in her office and related some of the Torture he had been the victim
of to her, as well as supplied her with a copy of the 11/02/16 paper he had written
and distributed to The Maine State Government Offices, including the Maine State
District Attorney’s Office, described above (“Complaint”, 1H[61 — 62, exhibits AA, K).
Later during that 11/30/16 hearing a plea agreement was reached between
the Petitioner and DA Lynch in which the Petitioner agreed to attend, in good-faith.
four “family counseling” sessions, after which time DA Lynch would dismiss the
case PENDC-CR-16-20309 against him (“Complaint”, exhibit J Page 3).

008

However, DA Lynch was rather imprecise in her “success criteria” for this
counseling and reserved the right to find it inadequate under any circumstance.
This stipulation was supported and enforced by the presiding Judge, Judge Charles
Budd of Newport District Court. DA Lynch also continually insisted that the
Petitioner see a “family counselor” from “The State Forensic Services Team” or
“Acadia Hospital”, both agencies the Petitioner found unpalatable as “The State
Forensic Services Team” works for The State of Maine, who was prosecuting the
Petitioner in this case, and the Petitioner therefore felt a more impartial “family
counselor” would be appropriate. Furthermore, the Petitioner has had a terrifiably
horrible experience at Acadia Hospital prior to the 11/30/16 hearing in which he
was both intentionally abused, harassed and his Rights to informed consent or to
refuse treatment were not respected (“Complaint”, ^65 — 66, exhibit J).
DA Lynch continually asked Judge Charles Budd to Order a Title 15 Forensic
Examination of the Petitioner during the 11/30/16 hearing, in what appeared to be
an attempt to remove or modify the plea agreement she had agreed to. Whether
Judge Budd actually ordered a Title 15 Forensic Examination of the Petitioner or
not is unclear and in dispute as Judge Budd has contradicted himself by stating
during the 11/30/16 hearing that he was both ordering a Title 15 Forensic
Examination and that he was not ordering a Title 15 Forensic Examination of the
Petitioner (“Complaint”, tH65 — 66, exhibit J, esp. exhibit J Pages 29 - 30, 35).
Due to a series of highly unfortunate events that include, but are not limited
to, an inability to locate a “family counselor” in the Petitioner’s immediate area,

009

destruction of the Petitioner’s vehicle in a traffic accident on or about 12/23/16, lack
of resources with which to purchase a new vehicle, a hospitalization, Petitioner’s
apartment being “condemned” by the town of Skowhegan (his town of residence at
that time) while he was in the hospital and his associated and necessary search for
a new apartment thereafter, the Petitioner was unable to attend any “family
counseling” sessions prior to the next hearing date of 03/22/17 (“Complaint”, ^|70).
ADA Burlock was present on behalf of DA Lynch for the 03/22/17 hearing.
ADA Burlock asked for the results of the Title 15 Forensic Evaluation and there
was confusion among both ADA Burlock and Judge Charles Budd as to whether or
not one had been ordered (“Complaint”, 1H|72 — 73, exhibit M Pages 1-3, 10, 12,
13).
Additionally, ADA Burlock claimed to have DA Lynch’s notes which he
claimed stated that a Title 15 Forensic Examination had been ordered and made no
mention of any Plea Agreement whatsoever (“Complaint”, Tf83, exhibit M).
Furthermore, Judge Budd denied being the Judge at the 11/30/16 hearing,
although the record states that he clearly was, and instead implicated Maine State
Superior Court Justice William Anderson as having been the presiding Judge
and/or ordering a Title 15 Forensic Evaluation of the Petitioner at the 11/30/16
hearing (“Complaint”, ^174, exhibit M page 12).
ADA Burlock stated his notes reflected the fact that Judge Budd was the
presiding Judge at the 11/30/16 hearing (“Complaint”, f 76, exhibit M Page 12),
although when it was denied by Judge Budd (“Complaint”, ^[74, exhibit M page 12),

010

ADA Burlock quickly did an about-face and said that his notes did in-fact indicate
that it was Maine State Superior Court Justice William Anderson presiding over
the 11/30/16 hearing (and possibly ordering a Title 15 Forensic Examination of the
Petitioner) (“Complaint”, ^{76, exhibit M Pages 12 — 13).
The 03/22/17 hearing was then continued to 04/26/17 to allow for “the
confusion” as described above to be settled. ADA Burlock was to speak with DA
Lynch regarding the “unknown Plea Agreement” not contained in her notes.
The Petitioner immediately recognized that he was being subject to nefarious
activity as it is impossible to believe that the Penobscot County District Attorney’s
Office is so incompetent such that DA Lynch’s notes did not contain any mention of
any plea agreement reached on 11/30/16, and stated only that a Title 15 Forensic
Evaluation of the Petitioner had been ordered.
It is also impossible to believe that The Newport District Court is so
incompetent to the extent that it had “mistaken” the presiding Judge at the
11/30/16 hearing as Justice William Anderson, as Judge Budd stated the courts’
notes said. Furthermore, Petitioner finds it impossible to believe that Judge Budd’s
own notes stated that Justice William Anderson was the presiding judge on
11/30/16, as Judge Budd said they did, as clearly Judge Budd was the presiding
Judge as is evident from the Official 11/30/16 hearing transcripts, both audio and
written. Finally, the Petitioner found it highly suspicious that ADA Burlock
indicated that DA Lynch’s notes properly identified Judge Budd as the presiding
Judge on 11/30/16, although after Judge Budd denied that fact, ADA Burlock

011

immediately did an about-face and agreed that DA Lynch’s notes did in-fact identify
Maine State Superior Court Justice William Anderson as the presiding judge during
the 11/30/16 hearing (“Complaint”, exhibit M).
None of the above Case Background is in dispute, it is Public Knowledge,
and it is readily verifiable by inspection of both the 11/30/16 and 03/22/17 PENDCCR-16-20309 Trial Transcripts (“Complaint”, exhibit J and M, respectively).
The Petitioner was justifiably alarmed by this nefarious behavior and
immediately ordered both the audio and written transcripts of both the 11/30/16
and 03/22/17 hearings in order to prove both that there was an agreed-upon plea
agreement in place with DA Lynch and that Judge Budd was in fact the presiding
judge on 11/30/16, not Maine State Superior Court Justice Anderson (“Complaint”,
exhibit J).
On 04/26/17 the Petitioner was met by DA Lynch, prior to the start of court,
and was handed a dismissal that indicated PENDC-CR-16-20309 had been
dismissed by The State of Maine due to “Witness Unavailable” (“Complaint”, f 89,
exhibit N).
It is clear from the Facts of the Petitioner’s Complaint and This Case that
“Witness Unavailable” had been the fact since approximately 07/27/16 (“Complaint”,
Iff25 - 28, 38, exhibit B) and that NEWDC-CR-16-20309 should have been
rightfully and justifiably dropped at that time. The Petitioner has reminded
Marianne Lynch of that fact in his first three points (1 - 3) in a “Motion to Dismiss”
filed by the Petitioner with The Court on 04/18/17 (“Complaint”, exhibit O).

012

However, The State of Maine continued to prosecute the Petitioner an
additional 9 months, at the expense of the Petitioner and his family and much to
the benefit, both gain and profit, of the Respondents in this case (“Complaint”, ^Hf90
— 100, exhibit O).
The Pro Se Petitioner therefore filed his Pro Se Complaint in Federal Comet
(1:20-CV-00149-LEW) against the defendants on 04/24/20 for needlessly prolonging
his case 9 months and forcing him to attend “counseling sessions” (possibly a Title
15 examination), since “Witness Unavailable” had been the known facts of this case
since approximately 07/27/16. The Counts against the defendants included, inter
alia, 42 U.S.C. § 1983 violations of the Petitioner’s 4th Amendment Rights to
protection against malicious prosecution and 42 U.S.C. § 1983 violations of the
Petitioner’s 5th Amendment Rights to both substantive and procedural due process.
Petitioner’s Complaint also sought redress for DA Lynch having ignored the
Petitioner’s confiding to her the fact(s) (and some details thereof) of the Torture he
had endured, thus violating The Geneva Conventions Against Torture and Other
Cruel, Inhuman, or Degrading Treatment or Punishment.
Judge Lance E. Walker of the District Court of Maine dismissed the
Petitioner’s complaint less than a month later, prior to service, on 05/22/20, stating
inter alia that the well-pled and well-evidenced facts of the Plaintiffs complaint
“cannot reasonably be construed to assert a substantial federal claim”.
Petitioner appealed to the U.S. Court of Appeals for the First Circuit, who
upheld Judge Walker’s dismissal on 11/12/20 and denied rehearing on 01/25/21.

013

REASONS FOR GRANTING THE WRIT
1. Torture is of exceptional importance to The United States Supreme
Court. Petitioner has made Penobscot County District Attorney
Marianne Lynch aware in this case, and The Maine Court System
and The Federal Court System (Department of Justice) continually
aware in numerous cases, of the Fact that he has been Tortured, and
has provided some details, and DA Lynch, The Maine Court System,
and the Federal Court System have done nothing to help the
Petitioner whatsoever, they have not even responded in any way
whatsoever, a violation of The United Nations Geneva Conventions
against Torture and Other Cruel, Inhuman or Degrading Treatment
or Punishment as well as numerous articles and amendments of The
United States’ own Constitution. Such continual and intentional
failure by The Maine State and Federal Courts to address the fact
that Petitioner has been verifiably Tortured poses serious questions
and concerns regarding The United States’ commitment to honor its
International Obligations to The United Nations and The Geneva
Conventions as well as The United States’ commitment to respect its
own Constitutional Laws and its own citizens’ Human Rights.
Petitioner has made DA Lynch aware in this case, on the morning of
11/30/16, that he had been tortured and has provided to her some details and
documentation regarding that Torture (“Complaint”, Tff 61 - 62, exhibits AA, K), in
an effort to solicit The State of Maine Attorney General’s Office and/or The Maine
State Court System’s assistance with this very real and very grievous problem.
Instead of the sympathy, assistance, and/or recommendation to an agency
that could help him, action(s) that the Petitioner feels he rightfully could and should
have expected, DA Lynch looked extremely uncomfortable and ended the meeting
immediately thereafter. “Out of sight, Out of mind” appeared to be DA Lynch’s
Modus Operandi when it came to Torture, and she made no attempts to hide this
Fact. This is a violation of The Geneva Conventions against Torture as well as the
Petitioner’s Constitutional Rights.

014

The State and Federal Courts have also continually and intentionally erred
in overlooking the fact that the Petitioner has been Tortured as described
extensively in his Court Documentation, including this case. Again, this is a
violation of The Geneva Conventions against Torture as well as the Petitioner’s
Constitutional Rights.
Not all references will be listed here as they are copious although the
Petitioner will list some of the numerous Judicially Noticeable places where the
Petitioner has described the Fact that he has been Tortured to The Courts,
including The Federal Courts who have jurisdiction over both Torture and
International Affairs (Ref. “First Circuit Court of Appeals Appellants Brief 20-1611”
pages 2, 7, 14, 27 — 29, 29 - 32, 32 - 33, 38 - 39; “Motion for Court-Appointed
Attorney” 11/27/20 f 5; “Second Motion for Court-Appointed Attorney’ 12/08/20 ^[5,
8, 9; “Combined Petition for Rehearing En Banc and Panel Rehearing” pages i — ii, 2
- 10, 16-17; “Complaint”, If^[61 — 62, exhibits AA, K), (Ref. “First Circuit Court of
Appeals Appellants Brief 20-1610” pages 3, 22; “Motion for Court-Appointed
Attorney” 11/27/20 If 5; “Second Motion for Court-Appointed Attorney” 12/08/20 f f 5,
8, 9; “Complaint”, Exhibit N), (Ref. First Circuit Court of Appeals Appellants Brief
20-1777 “Motion for Court-Appointed Attorney” 11/27/20 f|5; “Second Motion for
Court-Appointed Attorney” 12/08/20 Tf1f5, 8, 9; “Combined Petition for Rehearing En
Banc and Panel Rehearing” pages i — Iv, 5, 16 — IB), (Ref. “First Circuit Court of
Appeals Appellants Brief 20-2166” pages 2, 6, 15, 28, 44, 49 — 55; “Motion for CourtAppointed Attorney” 12/31/20”

5, 8, 9), (Ref. Maine State Supreme Court

015

Appellant’s Brief KEN-19-514), (Ref. Maine State Supreme Court Appellant’s Brief
KEN-18-479), (Ref. Maine State Supreme Court Appellant’s Brief PEN-18-458),
(Ref. Maine State Supreme Court Appellant’s Brief KEN-20-217), and The United
States Court System has continually erred in continually and intentionally
overlooking the highly-grievous Fact that the Petitioner has been verifiably
Tortured and in not responding to it or otherwise providing the Petitioner with any
assistance whatsoever, and has thus necessarily added themselves to the list of
State and Federal Government Agencies who are in violation of both Federal,
Constitutional, and International Law (Ref. “Eighth and Ninth Amendments to the
United States Constitution”; “USC Chapter 113C - Torture” Appendix D; “Geneva
Conventions Against Torture and Other Cruel, Inhuman or Degrading Treatment or
Punishment”, Appendix E).
The Courts’ continual decision to overlook and not address the fact that the
Petitioner has been tortured therefore conflicts with The United States Constitution
(Ref. “Eighth and Ninth Amendments to the United States Constitution”), U.S. Law
(“USC Chapter 113C — Torture”, Appendix D), and International Law (“Geneva
Conventions Against Torture”, Appendix E). Furthermore, Torture is of exceptional
importance as it is both a heinous Federal and International Crime that is, in some
cases, punishable by death and/or International Sanctions and The Courts’
failure to address the issue, much less offer the Petitioner a response of any
kind, raises serious doubts as to The United States’ commitment to honor both its
own Constitution and Laws as well as its agreed-upon International Obligations.

016

The Petitioner has made The Maine State Supreme Court aware of the Fact
that he has been tortured in every Appeal he has written to them (Ref. citations
above), and likewise has made The United States First Circuit Court of Appeals
aware of the Fact that he has been tortured in every Appeal he has written to them
(Ref. citations above), and has made The Courts aware that he has made numerous
State and Federal Agencies aware that he has been Tortured (Ref. citations above,
all), and none of these numerous State and Federal Agencies, The Maine State
Court System, or The Federal Court System has complied with Constitutional Law,
U.S. Law, or International Law regarding the Plaintiffs true, accurate, verifiable,
and signed and notarized complaints of Torture (Ref. “Eighth and Ninth
Amendments to the United States Constitution”), (Ref. “USC Chapter 113C —
Torture” Appendix D), (Ref. “Geneva Conventions Against Torture Part 1”,
Appendix E).
The Petitioner notes that Torture is both a Federal and International Crime
and that The Maine State Supreme Court continually attempts to evade the issue
by stating that it is “not within their jurisdiction” (Ref. Maine State Appeals cited
above; “Motions for Reconsideration” and The Courts’ response to “Motions for
Finding of Facts and Conclusions of Law”), despite the fact that The State of Maine
has both a duty and obligation to ensure that its citizens United States
Constitutional Rights are respected, upheld, and incorporated through the
Fourteenth Amendment to the United States Constitution (Ref. “Eighth, Ninth, and
Fourteenth Amendments to the United States Constitution”).

017

Setting aside The Maine State Court System’s refusal to abide by The United
States Constitution, The Federal Court System unquestionably has Jurisdiction
over Torture and Claims of Torture (Ref. “USC Chapter 113C — Torture”, Appendix
D), (Ref. “Geneva Conventions Against Torture”, Appendix E).
Furthermore, the Petitioner has discussed the fact, within his court
documentation (Ref. citations above) that he has reported the fact that he has been
Tortured to every Government Agency that he could think of that could conceivably
be able to help him. These State and Government Agencies include, but are not
limited to, The United States Department of Justice, The Federal Bureau of
Investigation, The United States Attorney General, The United States Supreme
Court, The United States First Circuit Court of Appeals, The United States District
Court of Maine, The United States Chapter (Maine) of The American Red Cross,
The American Civil Liberties Union (ACLU), The Offices of Maine State Senators
Susan Collins and Angus King, The Maine State Supreme Court, The Maine State
Superior Court, The Maine Human Rights Commission, The Maine Office of the
Attorney General (Janet Mills), The Maine Office of the Governor (Paul LePage),
The Maine Government Oversight Committee, The Maine Office for Program
Evaluation and Government Accountability, The Knox County Sheriffs
Department, The Kennebec County Sheriffs Department, and The Penobscot
County Sheriff s Department.
None of the above State or Federal Government Agencies has offered
the Petitioner any help whatsoever, not even a response, and are therefore in

018

violation of both Federal Law 18 U.S.C. 2340, 2340(A), and 2340(B) and Part 1
Article 13 of The Geneva Conventions Against Torture (Ref. Ref. “USC Chapter
113C — Torture”, Appendix D; “Geneva Conventions Against Torture”, Appendix E).
Part 1 Article 13 of The Geneva Conventions Against Torture states:
“Each State Party [including the United States] shall ensure that any
individual who alleges he has been subjected to torture in any territory under its
jurisdiction has the right to complain to, and to have his case promptly and
impartially examined by, its competent authorities. Steps shall be taken to ensure
that the complainant and witnesses are protected against all ill-treatment or
intimidation as a consequence of his complaint or any evidence given.”
(Ref. “Geneva Conventions Against Torture Part 1, Article 13” — Appendix E).
The Petitioner has alleged he has been Tortured by Federal Government
Employees during his employment at CDI Aerospace (UTC Hamilton Sundstrand,
Windsor Locks, CT) during the years of 2012 — 2013 to all of the State and Federal
Government Agencies identified above (although that list is not all-inclusive) as
early as 11/01/16 (arguably 11/20/15 as this information was disclosed to “Officer
David Trumbull” of the Penobscot County Sheriffs Office on that day), and not a
single one of those Government Agencies has acted to “ensure that any individual
who alleges he has been subjected to torture in any territory under Us jurisdiction
has the right to complain to, and to have his case promptly and impartially
eocamined by, its competent authorities”, nor have they acted to ensure ’’Steps shall be
taken to ensure that the complainant and witnesses are protected against all illtreatment or intimidation as a consequence of his complaint or any evidence given”,
as Article 13 of The Geneva Conventions Against Torture demands they must (Ref.
“Geneva Conventions Against Torture Part 1 Article 13”, Appendix E).

019

Therefore it is clear that the above State and Federal Government Agencies,
including The Maine State and Federal Courts, are in International Violation of
The Geneva Conventions Against Torture, Part 1 Article 13, to which The United
States of America is bound to uphold as it is both a signed and principal party to
The Geneva Conventions against Torture as well as The United Nations, who have
adopted The Geneva Conventions against Torture.
Similarly, The above State and Federal Government Agencies, including The
Maine State and Federal Courts, are in International Violation of The Geneva
Conventions Against Torture, Part 1 Article 14, to which The United States of
America is bound to uphold as it is both a signed and principal party to The Geneva
Conventions against Torture as well as The United Nations, who have adopted The
Geneva Conventions against Torture. Part 1 Article 14 of The Geneva Conventions
Against Torture states:
1. “Each State Party [including The United States of America] shall ensure in
its legal system that the victim of an act of torture obtains redress and has an
enforceable right to fair and adequate compensation, including the means for as full
rehabilitation as possible. In the event of the death of the victim as a result of an
act of torture, his dependents shall be entitled to compensation”.
2. “Nothing in this article shall affect any right of the victim or other persons
to compensation which may exist under national law”.
(Ref. “Geneva Conventions Against Torture Part 1 Article 14”, Appendix E).
At no time has any of the above-mentioned State or Government Agencies,
including The Maine State and Federal Court Systems, “ensure[d] in its legal
system that the victim of an act of torture obtains redress and has an enforceable
right to fair and adequate compensation, including the means for as full
rehabilitation as possible”, as Part 1 Article 14 of The Geneva Conventions Against

020

Torture demand they must, and these State and Government Entities are therefore
again undeniably in violation of International Law (Ref. “Geneva Conventions
Against Torture Part 1 Article 14”, Appendix E).
Finally, The Courts may attempt to “wish away” the Fact that the Petitioner
has been Tortured, and may somehow wish to call his claims of torture unfounded,
frivolous, not rising to the level of Torture, etc., as he has provided only a handful of
details regarding the Torture he has endured, details that are fit to print, as he
is justifiably afraid to publicly disclose the more heinous aspects of the Torture he
has endured because he knows those heinous aspects to be classified as at least
“Secret” (“Top Secret” in the case of the Petitioner) and knows that “the means and
methods employed” to Torture him “are not commonly known amongst the General
Population”. This is not a case of simple water-boarding or being made to stand
naked in a pyramid (i.e. “Abu Ghraib”); the Torture the Petitioner has endured from
United States Government Personnel is much worse, and the injury he has suffered
has been lasting, persistent, and painful.
However, somehow simply “wishing away” the Petitioner’s allegations of
Torture as unfounded, frivolous, or not rising to the level of Torture, is still in
violation of The Geneva Conventions Against Torture, specifically Articles 12 and
Articles 16, which state:
“Each State Party [including the United States of America] shall ensure that
its competent authorities proceed to a prompt and impartial investigation, wherever
there is reasonable ground to believe that an act of torture has been committed in
any territory under its jurisdiction”.
(Ref. “Geneva Conventions Against Torture Part 1, Article 12”, Appendix E).

021

and
1. “Each State Party shall undertake to prevent in any territory under its
jurisdiction other acts of cruel, inhuman or degrading treatment or punishment
which do not amount to torture as defined in article I, when such acts are
committed by or at the instigation of or with the consent or acquiescence of a public
official or other person acting in an official capacity. In particular, the obligations
contained in articles 10, 11, 12 and 13 shall apply with the substitution for
references to torture of references to other forms of cruel, inhuman or degrading
treatment or punishment. ”
2. “The provisions of this Convention are without prejudice to the provisions
of any other international instrument or national law which prohibits cruel,
inhuman or degrading treatment or punishment or which relates to extradition or
expulsion.”
(Ref. “Geneva Conventions Against Torture Part 1, Article 16”, Appendix E).
Furthermore, The First Circuit has held that
“We accept as true all well-pled facts set forth in complaint and draw all
Reasonable Inferences therein in the pleader’s favor.” (Artuso v. Vertex
Pharm Inc., 637 F.3d 1, 5 (1st Cir. 2011).
The Plaintiff s claims of Torture have been signed and sworn to under Notary
and Penalty of Perjury, and are well-pled in every single document This Court has
received from the Petitioner which describes them, and therefore must be accepted as
True by The First Circuit Court of Appeals (and This Court), pursuant to That
Court’s own holding in Artuso v. Vertex Pharm Inc. Furthermore, The Courts must
draw all reasonable inferences therein in the pleader’s favor, again pursuant to The
First Circuit Court of Appeals own holding in Artuso v. Vertex Pharm Inc.
Therefore, there is “reasonable ground” to believe the Plaintiff has been
tortured (or at least subjected to Cruel, Inhuman, or Degrading Treatment) as he
has pled numerous times pursuant to Artuso v. Vertex Pharm Inc., and therefore an

022

investigation is demanded by The Geneva Conventions Against Torture Article 12
(Ref. “Geneva Conventions Against Torture Part 1 Article 12”, Appendix E).
Additionally, The United States Supreme Court (This Court) has held that
[The Pleadings of a Pro Se Party are subject to] “less stringent standards
than formal pleadings drafted by lawyers” (Haines u. Kerner, 404 U.S. 519,
520)
The Plaintiff is not sure of what exactly he has to do in order for The Maine
State and Federal Court Systems to “properly receive the allegation that the Plaintiff
has been tortured from the Plaintiff and Those Courts have not told the Plaintiff
exactly what is additionally required of him, if anything at all, in order for Those
Court to take his allegations of Torture seriously and in response, act accordingly.
However, pursuant to Haines v. Kerner, the fact that The Plaintiff has alleged
he has been tortured to The Maine State and Federal Courts numerous times and in
every Complaint, Appeal, and Motion for a Court-Appointed Attorney they have
received from him (Ref. citations above) should satisfy the Pro Se Plaintiffs burden
of pleading the Fact that the Plaintiff has been Tortured to The Maine State and
Federal Courts, since as a Pro Se Plaintiff the Plaintiff has no idea how to
accomplish this in any way other than the numerous way(s) he already has (Ref.
citations above). Thus the Plaintiffs Pleadings of Torture are proper and should be
properly recognized and addressed by The First Circuit Court due to their own
holding in Artuso v. Vertex Pharm Inc. and The United States Supreme Courts’
Holding in Haines v. Kerner.

023

Therefore, whether or not the above-named Maine State Courts, Federal
Courts, and Maine State or Federal Government Agencies, including This Court,
would like to “believe” the Plaintiff has been Tortured, and they have not told the
Plaintiff that at all, in-fact they have all been suspiciously silent regarding
the matter of Torture at every mention of the matter of Torture and have
never offered a response of any kind whatsoever, the fact that the Plaintiff has
been tortured has been extensively-pled and well-pled in his complaint(s) and
pleadings (Ref. citations above), and Those Courts, as well as This Court, must
therefore accept the fact that the Plaintiff has been tortured to be True pursuant to
the holding in Artuso v. Vertex Pharm Inc., and an investigation is therefore
demanded pursuant to The Geneva Conventions against Torture, Part 1, Articles 12
and 13 (Ref. “Geneva Conventions Against Torture Part 1 Articles 12, 13, and 16”,
Appendix E), an investigation which has never been conducted, to the best of the
Plaintiffs knowledge, as not a single government agency has ever attempted
to contact the Plaintiff or solicit additional information in regards to the
Torture he has suffered from United States Government Personnel.
Thus, at present, almost five years’ have elapsed and the above-named
Government Agencies and Courts are still not in compliance with International
Law, specifically The Geneva Conventions Against Torture (Appendix E).
The Petitioner has asked The First Circuit Court of Appeals specifically, in
Appellant’s Brief 20—1611 (the case on appeal in this Petition for Writ), to:
“The Appellant also asks The Honorable United States First Circuit Court of
Appeals to connect him with an Impartial Federal Government Agency such that a

024

Prompt and Impartial Investigation into the Plaintiffs allegations of Torture may
be conducted pursuant The Geneva Conventions Against Torture, to which The
United States is bound by The United Nations to comply with”
(Ref. “First Circuit Court of Appeals Appellant’s Brief 20—1611”, pages 38—39)
which they have not done. They have not even offered the Petitioner a response.
Both The Maine State and Federal Court Systems are therefore in violation
of The Geneva Conventions against Torture, Articles 12, 13, 14, and 16 and have
clearly erred in ignoring the Petitioner’s claims of Torture contained in his Briefs
and Supporting Documentation (Ref. citations above).
The Fact that the United States is completely willing to ignore the
Petitioners claims of Torture despite the fact that he has been seeking redress
for this issue for the past five years is both troublesome and disconcerting and
suggests the fact that The United States is a “Paper Tiger” when it comes to
standing up to Human Rights Abuses - all talk and no action. We are quick to
condemn other countries for Human Rights Abuses while simultaneously ignoring
Torture perpetrated upon our own citizens within our own country.
The fact that these Human Rights Abuses (Torture of the Petitioner) have
come from within The United States itself and have been perpetrated by United
States Government Personnel on a lawful and law-abiding United States citizen
(the Petitioner) makes this fact all the more disconcerting. This has been the
Petitioner’s experience, it has not been pleasant, and it has not been in accordance
with United States Law, Constitutional Law, nor International Law. Thus The
Honorable United States Supreme Court cannot afford to cast a blind eye to this
issue and thus Certiorari should be granted.

025

2. The Continual and Intentional Abuse and Disenfranchisement of the
Pro Se Petitioner by The Federal Courts is illegal, unacceptable, and
is a violation of the Petitioner’s Fifth Amendment Right to Due
Process (Procedural and Substantive), in addition to other Rights
conferred to him and Laws protecting him. The Continual and
Intentional Abuse and Disenfranchisement of an unrepresented Pro
Se Litigant is of exceptional importance to This Court as it has
bearing on all Pro Se Litigants who either cannot afford or cannot
find legal representation.
The District Court of Maine has a verifiable history of not treating the
Plaintiff fairly, impartially, or in accordance with fact (“abuse” and/or
“disenfranchisement”), and this case is no exception. The U.S. First Circuit Court of
Appeals has remained silent on these abuses although the Plaintiff has brought
them to their attention in each of his appeals, including this case on review for
petition for certiorari, 20-1611 (Ref. “First Circuit Court of Appeals Appellants
Brief 20-1611” pages 32 — 34, “Motion for Court-Appointed Attorney” 11/27/20 ff2,
3, 4; “Second Motion for Court-Appointed Attorney” 12/08/20 f f 2, 3, 4, 5, 8, 9).
This abuse and disenfranchisement has taken the forms of the following,
although this fist is by no means all-inclusive.
The Federal District Court of Maine continually mischaracterizes the
indigent Pro Se Plaintiffs statements and/or complaints in a most inaccurate and
unflattering way within their Orders, Opinions, Recommended Decisions, and
Decisions that are publicly published and available on the internet. However, the
indigent Pro Se Plaintiff s responses (and corrections of the record) to these
unflattering and biased mischaracterizations are unpublished and not available on
the internet and thus the Plaintiff is continually and publicly mischaracterized,

026

defamed and/or libeled by The Federal District Court of Maine, an unacceptable and
illegal action for which he has no recourse. This type of abuse has happened in
every single case the Plaintiff has filed in federal district court. The Plaintiff is
page-limited in this Petition to The Honorable Court and thus cannot cite every
single instance where this has occurred, as they are copious, although he can
certainly cite objective and verifiable evidence that this has happened and is
continuing to happen for This Honorable Court’s review (Ref. “Orders” and
“Recommended Decisions” and compare them with the Plaintiff’s actual filings in
1:19-CV-00486-JAW; 2:19-CV-00532-JAW; 1:20-CV-00011-JAW; 1.20-CV-00043JAW; 1:20-CV-00137-LEW; 1:20-CV-00137-LEW).
The Plaintiff has alerted The First Circuit Court of Appeals to this fact in
every one of his appeals to that court (Ref. “First Circuit Court of Appeals
Appellants Brief 20-1611” pages 32 - 39, “Motion for Court-Appointed Attorney”
11/27/20

2, 3, 4; “Second Motion for Court-Appointed Attorney” 12/08/20 1H|2, 3, 4,

5, 8, 9), (Ref. “First Circuit Court of Appeals Appellants Brief 20—1610” pages 12 32; “Motion for Court-Appointed Attorney” 11/27/20 ^[f 2, 3, 4; “Second Motion for
Court-Appointed Attorney” 12/08/20 f1{2, 3, 4, 5, 8, 9), (Ref. “First Circuit Court of
Appeals Appellants Brief 20-1777” pages 27 — 44, 47 — 48; “Motion for CourtAppointed Attorney” 11/27/20 f f 2, 3, 4; “Second Motion for Court-Appointed
Attorney” 12/08/20

3, 4, 5, 8, 9), (Ref. “First Circuit Court of Appeals

Petitioners Brief 20—2166” pages 41 - 48; “Motion for Court-Appointed Attorney”
12/31/20” 1H[2, 3, 4, 5, 8, 9). The First Circuit Court of Appeals has refused to

027

respond in any way or put a stop to the common, inaccurate, and particularly
unflattering mischaracterizations of the indigent and Pro Se Petitioner’s pleadings
that he has alerted them to.
The district court often makes the particularly inaccurate and unflattering
mischaracterizations cited above and then uses these mischaracterizations to
improperly call the Plaintiffs pleadings “Golden-like” (Golden v. Coleman, 429 Fed.
App’x 73, 74 (3rd Cir. 2011), 'Flores-like” (Flores v. U.S. Atty. Gen., No. 2:13-CV00053-DBH, 2013 WL 1122719, at *2 (D. Me. Feb. 26, 2013) and 2:13-CV-53-DBH,
2013 WL 1122635 (D. Me. Mar. 18, 2013), or “Denton-like” (Denton v. Hernandez,
504 U.S. 25, 33 (1992). Like the associated unflattering mischaracterizations of the
Petitioner’s pleadings as cited above, this has happened in every single case the
Plaintiff has filed in the federal district court of Maine (Ref. “Orders” and
“Recommended Decisions” and compare them with the Plaintiff s actual filings in
l:19-CV-00486-JAW; 2:19-CV-00532-JAW; 1:20-CV-00011-JAW; l:20-CV-00043JAW; 1:20-CV-00137-LEW; 1:20-CV-00137-LEW) and the Plaintiff has alerted The
Honorable First Circuit Court of Appeals to this fact (Ref. First Circuit Citations,
Page 15).
The district court, pursuant to their mischaracterizations of the Plaintiffs
complaint(s) and subsequent findings based on those mischaracterizations as cited
above, have warned the Plaintiff that “filing restrictions are in the offing” pursuant
to Cok v. Family Court of Rhode Island, 985 F.2d 32, 35 (1st Cir. 1993) by Judge

028

Lance E. Walker of The Federal District Court of Maine in both of his published
decisions (Ref. “Decisions” in 1:20-CV-00137-LEW; 1:20-CV-00149-LEW).
This has had a chilling effect on the indigent Pro Se Plaintiffs Right to Equal
Access to and Protection under the Law, Access to The Court, and willingness to file
additional True and Accurate Complaints in The Federal District Court as he is
justifiably afraid filing restrictions will be unjustly imposed as described above if he
files additional complaint(s) in The Federal District Court.
However, the Statute of Limitations does not toll despite the chilling effect
the indigent Pro Se Plaintiff has experienced from the district court, and thus the
Plaintiff finds that he has been the victim of “fundamental unfairness impinging on
his due process rights”, pursuant to DesRosiers v. Moran, 949 F.2d 15, 23 (1st Cir.
1991). The Plaintiff has alerted The Honorable First Circuit Court of Appeals to
this fact (Ref. First Circuit Citations, Page 15).
The district court has continually ignored the Plaintiffs Judicially
Noticeable and Factually Verifiable allegations of Torture that he has included in
exhibit to his complaints, which is in violation of the Geneva Conventions Against
Torture, Part 1, Articles 12, 13, 14, and 16 (Appendix E). As Torture is both an
International and Federal Crime, the federal district court has jurisdiction over
Plaintiffs allegations of Torture, and they are improperly and unlawfully ignoring
them. The Plaintiff has alerted The Honorable First Circuit Court of Appeals to
this Fact (Ref. First Circuit Citations, Page 15).

029

The district court has issued a recommended decision(s) and has invited the
Plaintiff to file an objection(s) pursuant to Fed. R. Civ. P. 72 in case 2:19-CV-00532JAW. The unschooled and Pro Se Plaintiff has then spent his time and energy
composing such objection, only to find that an order has issued prior to the time
allowed by Fed. R. Civ. P. 72 to file such objection had elapsed (14 days) and the Pro
Se Plaintiff has therefore misspent his time on composing that objection, although
that time would not have been misspent had the District Court of Maine simply
waited the 14 days to give the Petitioner opportunity to file such objection as Fed. R.
Civ. P. 72 states the Plaintiff is allowed. This situation has happened in at least
case 2:19-CV-00532-JAW, as that docket record will reflect, and a similar situation
has occurred in case l:20-CV-00043-JAW.
Although perhaps not as grievous as the previous examples of seemingly
intentional unflattering mischaracterizations of the Petitioner’s pleadings, opinions
and recommended decisions based on those unflattering mischaracterizations, and
the threatening of the imposition of filing restrictions pursuant to those unflattering
mischaracterizations, which rise to the level of unlawful behavior, the Plaintiff still
finds this action by the district court to be unnecessary, inappropriate, and
additional evidence that the district court holds a less-than-impartial view of the
Plaintiff. The district court often waits months before responding to The Plaintiffs
pleadings, and when it does those responses are often template-type responses
(approximately 2/3 of the text of those responses appear to be “boiler-plate”) and

030

thus it appears that in actuality it took the district court much less time to compose
the response than the months the Plaintiff waited to receive the response.
However, the district court of Maine is quick to act when it wants to, as it has
in case 2:19-CV-00532-JAW, when it issued a final order disposing of the Plaintiffs
complaint in that case, based on a recommended decision, within the 14-day window
the Plaintiff had to Object pursuant to Fed. R. Civ. P. 72. To think that the district
court is usually willing to wait months before it gets around to replying to the
Plaintiffs pleadings, and then does not even give the Plaintiff his statutory 14-days
to object to a recommended decision, is a slap in the face to the Pro Se Plaintiff, who
finds this situation to be abusive, nefarious, patently unfair, and arguably
disenfranchisement and infringement upon the Plaintiffs Fifth Amendment Right
to Procedural Due Process. The district court is willing to wait months before
issuing a 6-page reply, 4 pages of which are usually boiler-plate, but is unwilling to
afford the Plaintiff 14 days to properly object to a recommended decision pursuant
to Fed. R. Civ. P. 72? This is as ridiculous as it is unfair, and is additional evidence
that the district court has a less-than-impartial view of the Plaintiff.
A similar situation has occurred in case l:20-CV-00043-JAW (appealed as
20—2166) where the Plaintiff has filed an initial complaint on 02/07/20 (Ref. 1:20CV-00043-JAW, “Complaint”, 02/07/20), has noted within that complaint that he is
aware that it needed amendment and would amend his complaint pursuant to Fed.
R. Civ. P. 15 in the 20-days’ time afforded to him by that Rule, and instead of
waiting the usual 60 days or so to respond to the Plaintiffs initial fifing (Ref. 1:19-

031

CV-00486-JAW; 1.19-CV-00532-JAW; 1:20-CV-00011-JAW), the district court has
seized the opportunity to prevent the Plaintiff from amending his complaint “once as
a matter of course” within 20 days of filing pursuant to Fed. R. Civ. P. 15 by
responding to it in exactly 6 days’ time, which is approximately 1/10 of the time it
has taken for response in all of the other Plaintiffs Pro Se cases referenced above
(Ref. l:20-CV-00043-JAW, “Recommended Decision”, 02/13/20).
Not only was this exceedingly timely review unnecessary, as the Plaintiff had
already stated to the district court in his complaint that it required amendment and
would be amended “once as a matter of course” pursuant to Fed. R. Civ. P. 15, but
this exceedingly timely review was completely unhelpful as it only reiterated the
deficiencies in the Plaintiffs complaint the Plaintiff had already identified within
his complaint for amendment (Ref. “Complaint”, 02/07/20,

11; “Recommended

Decision”, 02/13/20).
Clearly this exceedingly timely review was performed in much less time
(approximately 1/10 the time) of the other complaints the Plaintiff has filed as noted
above, and the only logical reason for it, that the Plaintiff can deduce, was to
procedurally rob the Plaintiff of a chance to amend his complaint “once as a matter
of course” within 20-days pursuant to Fed. R. Civ. P. 15, which was exactly the
Plaintiffs intention as stated within that complaint itself (Ref. “Complaint”, 02/07/20

HDSubsequently, the Plaintiff was given one and only one opportunity to amend
his complaint before Judge Woodcock acted on Magistrate Nivison’s 02/13/20

032

Recommended Decision and dismissed the Plaintiffs complaint 9 months later on
11/12/20. The Plaintiff finds the fact that he was given one and only one
opportunity to amend his complaint, and that being pursuant to a recommended
decision that only identified deficiencies already identified by the Plaintiff himself in
his initial complaint, to be a clearly unfair, unjust, and improper way to treat an
indigent Pro Se Plaintiff and his complaint.
Again, the Plaintiff understands that this situation is perhaps not as
grievous as the previous examples he has cited, which rise to the level of unlawful
behavior, although the Plaintiff rightfully finds that it is additional evidence that
the district court has a less-than-impartial view of the Plaintiff and has treated him
le ss-than-imp artially.
The Plaintiff would like The Honorable Court to take note of this situation
and these particular situations as cited in this argument and respond accordingly.
Furthermore, the Plaintiff has filed a Motions for a Court-Appointed
Attorney pursuant to 28 U.S.C. 1915(e)(1) in this case under review and his other
cases before The First District Court of Appeals and cites the above behavior by the
district court, some of it criminal, as evidence that such an attorney is required by
the indigent and Pro Se Plaintiff as he is experiencing “fundamental unfairness
impinging on his due process rights” by the district court of Maine, pursuant to
DesRosiers v. Moran, 949 F.2d 15, 23 (1st Cir. 1991) that he has neither the legal
wherewithal to handle himself nor a visible path to redress.

033

The Petitioner cannot find any logical explanation for the verifiably wrong
behavior perpetrated upon the Petitioner by the district court of Maine as cited in
this argument, except perhaps for the fact that the Plaintiff has properly alleged he
has been Tortured by United States Federal Employees (and he has) and perhaps
the Federal Courts are seeking to discredit him on the public record. This is not a
Denton-like statement, it is a logical deduction — as noted in Argument #1, the
Petitioner has made copious amounts of State and Federal Agencies aware of the
Fact that he has been tortured, including the Courts, and not a single agency or
Court has offered any response whatsoever to this highly-illegal situation.
The continual and intentional abuse and disenfranchisement of an indigent
Pro Se litigant, as described within this argument, is not Constitutional nor is it
lawful and results in “fundamental unfairness impinging on due process rights”.
The Honorable United States Supreme Court should have an active and healthy
interest in ensuring that the Justice System works fairly, justly, and properly for
everyone in this country (Lady Justice wears a blindfold for a reason), even the least
among us such as indigent and Pro Se litigants, and thus certiorari should be
granted.
3. The District Court of Maine has abused its discretion hy improperly
dismissing the Pro Se Plaintiffs complaint sua sponte and prior to
service on any defendants, and that decision conflicts with the
Plaintiffs Fifth Amendment Constitutional Rights, as well as other
Rights conferred to him, as well as in-practice case law.
The Petitioner’s complaint was dismissed, in substance, for “[not] asserting]
a substantial Federal Claim” (Ref. Appendix B).

034

The basis for this conclusion was, in essence, that it was the opinion of Judge
Walker of the district court of Maine that the Plaintiffs complaint was “absolutely
devoid of merit”, “wholly insubstantial”, “obviously frivolous”, “plainly
insubstantial”, “no longer open to discussion”, “essentially fictitious”, and “obviously
without merit” (Ref. Appendix C).
However, as the Petitioner has shown in the “Statement of the Case” (Pages 4
13), the Petitioner’s complaint (1:20-CV-00149-LEW) was none of those things.
The Petitioner’s complaint cannot rightfully be called any of those things
cited in the district court’s opinion as the Facts of the Case (Pages 4 — 13) are welldocumented and well-evidenced in The Trial Court’s own documentation, including
the written and certified transcripts, of which the Plaintiff has included as exhibits
to his complaint in order to prove his case.
Unless it is the position of Judge Walker that the Waterville District Court’s
record of case PENDC-CR-16-20309 is “absolutely devoid of merit”, “wholly
insubstantial”, “obviously frivolous”, “plainly insubstantial”, “no longer open to
discussion”, “essentially fictitious”, and “obviously without merit”, then the district
court’s opinion is unfounded and uncredible as the Petitioner has written his
complaint and has based and evidenced it on the verifiable case record that exists for
case PENDC-CR-16-20309, and as discussed above the Petitioner has added the
salient case record files, including the certified transcripts, as exhibits to his
complaint in support of the facts of his complaint (Ref. “Complaint”, all; PENDCCR-16-20309 docket, all).

035

There is clearly a credibility gap here that becomes apparent when the facts
of case PENDC-CR-16-20309, as recorded in the docket files, are compared with the
facts of the Petitioner’s complaint, and the credibility is not in the district court of
Maine’s favor or in favor of the defendants in this case.
The Plaintiff understands that he has caught some of the defendants’ “redhanded”, so to speak, as the facts of PENDC-CR-16-20309 as recorded in the docket
files match the Petitioner’s complaint and are indisputable. Although there are
indeed some defendants who are a party to this complaint who would probably
rather not be caught and called out in a Federal Court Case (such as the DA, ADA,
and Judge), much less in a complaint that includes violations of The Geneva
Conventions against Torture (“Complaint”, counts 45 & 46), the fact remains that
Lady Justice wears a blindfold for a reason and these people are not above reproach
In this case, Judge Walker of the district court of Maine has removed the
blindfold and spared these defendants even the necessity to provide answer by
inappropriately dismissing all 46 counts of the Plaintiffs meritorious complaint sua
sponte. The sua sponte dismissal of all 46 counts was inappropriate because the
Plaintiffs complaint matches the verifiable and indisputable facts of the case, and
in many instances includes the case files as exhibits to prove the facts of his
complaint, as discussed above.
The Petitioner notes that only one count of his complaint needs to be found
meritorious in order for his case to proceed. Judge Walker and the district court of
Maine have completely quashed all discussion whatsoever of PENDC-CR-16-20309

036

by inappropriately dismissing it sua sponte prior to service upon any defendant, and
has disenfranchised the Petitioner by doing so.
Judge Walker and the district court of Maine’s opinion is also in conflict with
existing and in-use case law. The Petitioner is indigent and Pro Se and cannot find
an attorney to represent him (probably due to the Fact that he has been Tortured by
United States Government Personnel), but he has found a few case citations which
support his contentions, and he is quite sure that The Honorable United States
Supreme Court knows a few more.
The United States Supreme Court has held that:
[A Pro Se Plaintiff s complaint is subject to] “less stringent standards than
formal pleadings drafted by lawyers” (Haines v. Kerner, 404 U.S. 519, 520).
The Petitioner is not alleging there is anything wrong with the Facts of his
complaint, in-fact he is stating the exact opposite, and using the existing and
indisputable case files in NEWDC-CR-16-20309 to prove his case, as inspection of
his complaint will reveal (Ref. “Complaint”, all; NEWDC-CR-16-20309, all).
The Pro Se Petitioner however does recognize that perhaps 46 counts was
excessive. In particular, some of those counts were predicated on criminal statutes
and, had the indigent and Pro Se Petitioner known at that time, should not have
been included in the complaint. Haines affords the Pro Se Petitioner small
mistakes such as this, and the fact that some counts may have been fruitless or not
prosecutable by the Plaintiff does not make the remaining counts “frivolous” or
“devoid of merit”. Each count should be evaluated on its own merits, as The
Honorable Court knows, and the district court of Maine has not done that.

037

The First Circuit Court of Appeals has held that:
“We accept as true all well-pled facts set forth in complaint and draw all
Reasonable Inferences therein in the pleader’s favor.” (Artuso v. Vertex
Pharm Inc., 637 F.3d 1, 5 (1st Cir. 2011).
The Petitioner’s complaint did not leave much room for inference as it was
well-evidenced by the case material in the docket of NEWDC-CR-16-20309, and
when it did leave room for inference, those reasonable inferences should have been
drawn in the pleader’s favor (Ref. “Complaint”, all; NEWDC-CR-16-20309, all). It is
therefore clear that the district court’s sua sponte dismissal of the Plaintiffs wellevidenced complaint is in conflict with The First Circuit’s holding in Artuso v. Vertex
Pharm Inc., 637 F.3d 1, 5 (1st Cir. 2011).
The United States Supreme Court has held that:
“An in forma pauperis complaint may not be dismissed, however, simply
because the court finds the plaintiffs allegations unlikely.” Denton v.
Hernandez, 504 U.S. 25, 33 (1992).
It would be difficult to find the Petitioner’s allegations “unlikely” as they are
well-evidenced by the indisputable facts of the case as found in the PENDC-CR-16
20309 docket, many of the case material having been included as exhibit to the
complaint in order to prove the Petitioner’s allegations. However, the district court
of Maine has done exactly that and thus the district court’s opinion conflicts with
The U.S. Supreme Court’s holding in Denton v. Hernandez, 504 U.S. 25, 33 (1992).
The United States Supreme Court has held that:
“a court may dismiss a claim as factually frivolous only if the facts alleged are
“clearly baseless””. Neitzke v. Williams, 490 U.S. 319, 324 (1989).

038

A comparison of the Petitioner’s complaint and exhibits to that complaint,
much of it taken directly from the PENDC-CR-16-20309 case material, shows that
the Plaintiffs complaint does not approach “clearly baseless” by a long shot and
therefore sues sponte dismissal of the Plaintiffs complaint by the district court for
the stated reason that it was “baseless” or “unsubstantiated” is both ridiculous and
in conflict with Neitzke v. Williams, 490 U.S. 319, 324 (1989).
Thus it is evident that the indigent and Pro Se Petitioner’s complaint was not
only improperly dismissed by the district court of Maine but that improper
dismissal is in conflict with existing and in-use case law, much of it coming directly
from The Honorable United States Supreme Court itself.
The Honorable Court should not abide the Unconstitutional, Unlawful, and
discriminatory treatment of an indigent and Pro Se litigant for any reason
whatsoever. The fact that this type of unlawful abuse is occurring should be a “red
flag” to The Honorable Court that the actions of the district court of Maine have
deteriorated to such an extent that a higher power’s intervention is necessary; thus
certiorari should be granted.

039

CONCLUSION
The Petition for Certiorari should be granted.
Furthermore, The Honorable United States Supreme Court should provide
the Petitioner with the resources (Legal Assistance, a Federal Agency, etc.) with
which he might find resolution to the very important problem of Torture that he has
positively experienced from United States Government Personnel and the lasting,
persistent, and painful injuries that have resulted from that Torture^

Respectfully Submitted,

iwburgh, Maine 04444
207.659.2595

040

